   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2009 AND 2008

     National Transportation Safety Board

        Report Number: QC-2010-009
       Date Issued: November 10, 2009
U.S. Department of                                                 Office of Inspector General
Transportation                                                     Washington, DC 20590

Office of the Secretary
of Transportation




November 10, 2009

The Honorable Deborah A. P. Hersman
Chairman
National Transportation Safety Board
490 L’Enfant Plaza SW
Washington, D.C. 20594

Dear Chairman Hersman:

The audit of the National Transportation Safety Board’s (NTSB) Financial
Statements as of and for the fiscal years (FYs) ended September 30, 2009, and
September 30, 2008, was completed by Leon Snead & Company, P.C., of
Rockville, Maryland (see Enclosure). We performed a quality control review of
the audit work to ensure that it complied with applicable standards. These
standards include the Chief Financial Officers Act; Accountability of Tax Dollars
Act of 2002; Generally Accepted Government Auditing Standards; and Office of
Management and Budget Bulletin 07-04, “Audit Requirements for Federal
Financial Statements,” as amended.

Leon Snead & Company concluded that the financial statements present fairly, in
all material respects, the financial position, net cost, changes in net position, and
budgetary resources of the NTSB as of and for the years ended
September 30, 2009, and September 30, 2008, in conformity with accounting
principles generally accepted in the United States. Leon Snead & Company
reported one internal control significant deficiency and no instances of
noncompliance with significant laws and regulations.

Significant Deficiency

  1. NTSB Has Not Yet Implemented a Managerial Cost Accounting System



Report Number QC-2010-009
                                                                               2

Leon Snead & Company first reported NTSB’s lack of a cost accounting system as
a significant deficiency in FY 2007. NTSB has obtained the funding to implement
a cost accounting system during FY 2010; therefore, Leon Snead & Company did
not make any further recommendations in its FY 2009 report.

Our quality control review disclosed no instances in which Leon Snead &
Company did not comply with applicable auditing standards. Therefore, we are
not making any additional recommendations, and a response to this report is not
required.

We appreciate the cooperation and assistance of representatives of NTSB and
Leon Snead & Company, P.C. If we can answer any questions or be of any further
assistance, please call me at (202) 366-1407 or Earl Hedges, Program Director, at
(410) 962-1729.


Sincerely,



Rebecca C. Leng
Assistant Inspector General for Financial and
 Information Technology Audits

Enclosure
